HHS/OIG-Audit--"Fiscal Intermediary Determinations of Hospitals' Graduate
Medical Education Costs for the Medicare Base Year, (A-06-94-00059)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Fiscal Intermediary Determinations of Hospitals' Graduate Medical Education
Costs for the Medicare Base Year," (A-06-94-00059)
June 20, 1995
Complete
Text of Report is available in PDF format (1.19 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Medicare system for reimbursing teaching hospitals for graduate medical education
(GME) costs uses a formula approach based on each hospital's average GME cost per
physician intern and resident for a designated base year. Our audit was made to
determine whether Medicare's fiscal intermediaries (FI) have adequately audited
the GME costs and resident counts for the base year, and correctly established
each hospital's average GME costs per resident. We found significant problems with
the FI audits involving the accuracy of resident counts. As a result, we recommended
in individual reports to the FIs recovery of $14.4 million for past years. In this
final report we are recommending that the Health Care Financing Administration
(1) direct its FIs to emphasize in future audits of the payment years the accuracy
of the FTE resident counts, (2) monitor the effectiveness of these audits, and
(3) consider analyzing and comparing GME payments under the new payment methodology
with actual GME costs, as part of its oversight responsibilities.